GR-70-98-017
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
 Community Oriented Policing Services
Grants to the Boston, Massachusetts Police Department

GR-70-98-017
 
September 11, 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented
Policing Services (COPS) to the Boston, Massachusetts Police Department (Boston). Boston
received a total of $8,676,150 in COPS grant funds to hire 112 additional sworn police
officers and redeploy 27.1 full-time-equivalent (FTE) sworn police officers to community
policing under the Accelerated Hiring, Education and Deployment Program (AHEAD), the
Universal Hiring Program (UHP), and the 1995 Making Officer Redeployment Effective Program
(MORE 95).
Generally, we found that Boston properly managed its COPS grants; however,
Boston did not develop a plan to document the redeployment of 27.1 FTEs to community
policing resulting from its MORE 95 grant. The MORE 95 grant's redeployment condition
requires grantees to develop a redeployment plan within 60 days of accepting the grant.
Because Boston did not develop a redeployment plan, we question the entire MORE 95 grant
of $276,150. 
These items are discussed in the Findings and Recommendations section of
the report. Our scope and methodology appear in Appendix II.
#####